                                                                         OFFICE OF THE
U.S. Department of Labor                                                 CHIEF FINANCIAL OFFICER

                           Office of Inspector General—Office of Audit




                                                                         MANAGEMENT ADVISORY COMMENTS IDENTIFIED
                                                                         IN AN AUDIT OF THE CONSOLIDATED FINANCIAL
                                                                         STATEMENTS
                                                                         FOR THE YEAR ENDED SEPTEMBER 30, 2012


                                                                         This report was prepared by KPMG LLP, under contract to the U.S.
                                                                         Department of Labor, Office of Inspector General, and by acceptance, it
                                                                         becomes a report of the Office of Inspector General.




                                                                                                                  U.S. Department of Labor
                                                                                                            Assistant Inspector General for Audit




                                                                                                           Date Issued:            June 4, 2013
                                                                                                        Report Number:         22-13-006-13-001
                                                                                           Prepared by KPMG LLP
                                                       for the U.S. Department of Labor—Office of Inspector General


Table of Contents
Executive Summary ...................................................................................................... 1

Letter to the Assistant Inspector General for Audit and the
Chief Financial Officer ................................................................................................. 3

Exhibit 1 - Comments and Recommendations ........................................................... 5
    1. Unsupported and/or Incorrect Expenses............................................................ 5
    2. Insufficient Supporting Documentation for Certain Undelivered
        Orders (UDO) .................................................................................................... 6
    3. Insufficient Monitoring of UDOs ......................................................................... 9
    4. Unsupported Non-federal Accounts Payable ................................................... 11
    5. Unsupported Cost Allocation Percentages ...................................................... 12
    6. Insufficient Controls over Certain Budgetary Transactions .............................. 14
    7. Insufficient Review of the Budgetary to Proprietary Reconciliation .................. 15
    8. Non-Compliance with the United States Standard General Ledger
        (USSGL) at the Transactional Level ................................................................ 17
    9. Deficiencies Noted in the Preparation of the Federal Managers’
        Financial Integrity Act of 1982 (FMFIA) Draft Assurance Statement ................ 20
    10. Weaknesses Identified in the Review of Payroll Suspense Reports ................ 23
    11. Improvements Needed over the Review and Reconciliation of
        Payroll-related Information Provided by the NFC ............................................. 24
    12. Improvements Needed in the Reconciliation of FBWT..................................... 27
    13. Improvements Needed in the Monthly Statement of Differences
        (FMS 6652) Process ........................................................................................ 30
    14. Untimely Review of Intra-governmental Reconciliation of Office
        of Personnel Management (OPM) Employee Benefits..................................... 35
    15. Improvements Needed in Property, Plant, & Equipment (PP&E)
        Controls ........................................................................................................... 37
    16. Untimely Initiation of Background Checks for Personnel with
        Access to Financial Systems ........................................................................... 39
    17. Lack of Proper Review of Claimant’s Information Recorded in
        the Energy Compensation System (ECS) ........................................................ 42
    18. Lack of Formal Financial Reporting Policies and Procedures .......................... 43
    19. Lack of Policies and Procedures Related to New Obligations/Modifications.... 45
    20. Lack of Advisory Council on Unemployment Compensation............................ 46
    21. Insufficient Policies and Procedures Related to the Preparation
        of the Financial Audit Manual (FAM) 2010 Checklist ....................................... 47

Exhibit II - Status of Prior Year Comments ............................................................... 51

Appendix A .................................................................................................................. 57
    Acronyms and Abbreviations................................................................................. 57
                                                                                     Management Advisory Comments
                                                                              For the Year Ended September 30, 2012
                                                                                    Report Number: 22-13-006-13-001
                                                  Prepared by KPMG LLP
              for the U.S. Department of Labor—Office of Inspector General




THIS PAGE IS INTENTIONALLY LEFT BLANK




                                       Management Advisory Comments
                                For the Year Ended September 30, 2012
                                      Report Number: 22-13-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General



Executive Summary
KPMG LLP (KPMG), under contract to the United States Department of Labor (DOL or
the Department) Office of Inspector General (OIG), audited the DOL’s consolidated
financial statements as of and for the year ended September 30, 2012. The audit was
conducted in accordance with auditing standards generally accepted in the United
States of America; Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. The objective of the audit
was to express an opinion on the fair presentation of DOL’s consolidated financial
statements. Additionally, other objectives included expressing an opinion on DOL’s
compliance with requirements of Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (Public Law 104-278), based on an examination.

In planning and performing the audit, DOL’s internal control over financial reporting and
DOL’s compliance with certain provisions of applicable laws, regulations, contracts, and
grant agreements that could have a direct and material effect on the fiscal year
(FY) 2012 consolidated financial statements were considered in order to determine
auditing procedures for the purpose of expressing an opinion on the consolidated
financial statements. The objective of the audit was not to provide assurance on DOL’s
internal control over financial reporting or on compliance with laws, regulations,
contracts, and grant agreements; accordingly, such opinions were not provided.
However, certain matters were noted involving internal control and its operation that
were considered to be significant deficiencies. In addition, certain other matters were
noted that were considered to be management advisory comments.

This report was prepared to provide information to management that could assist in the
development of corrective actions for the management advisory comments identified in
the audit. Separate reports were issued by the OIG to each applicable Agency Head
with comments pertaining to the testing procedures performed over the Department’s
general and application controls related to certain information technology (IT) systems
that support the consolidated financial statements.

Details of the significant deficiencies listed below have been included in the
Independent Auditors’ Report found in DOL’s FY 2012 Agency Financial Report.

Significant Deficiencies

1. Lack of Sufficient Security Controls over Key Financial and Support Systems
2. Lack of Sufficient Controls over Grants
3. Improvements Needed in the Preparation and Review of Journal Entries



                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2012
                                        1                     Report Number: 22-13-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General


Management Advisory Comments

Although not considered to be significant deficiencies, we identified certain other non-IT
matters during the audit which we would like to bring to management’s attention. These
findings and recommendations are presented in this report.




                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2012
                                        2                     Report Number: 22-13-006-13-001
                                                                                       Prepared by KPMG LLP
                                                   for the U.S. Department of Labor—Office of Inspector General




                             KPMG LLP
                             Suite 12000
                             1801 K Street, NW
                             Washington, DC 20006




November 16, 2012


Mr. Elliot P. Lewis, Assistant Inspector General for Audit
Mr. James L. Taylor, Chief Financial Officer
U.S. Department of Labor
Washington, D.C. 20210


Mr. Lewis and Mr. Taylor:

We have audited the consolidated financial statements of the United States Department
of Labor (DOL) for the fiscal year (FY) ended September 30, 2012, and have issued our
report thereon dated November 16, 2012. In planning and performing our audit of the
consolidated financial statements of DOL, in accordance with auditing standards
generally accepted in the United States of America, we considered DOL’s internal
control over financial reporting (internal control) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the consolidated financial
statements but not for the purpose of expressing an opinion on the effectiveness of
DOL’s internal control. Accordingly, we do not express an opinion on the effectiveness
of DOL’s internal control. We have not considered internal control since the date of our
report.

During our audit, we noted certain matters involving internal control and other
operational matters that do not relate to information technology (IT) and are presented
for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management and have been communicated
through the issued Notifications of Findings and Recommendations, are intended to
improve internal control or result in other operating efficiencies and are summarized in
Exhibit I. These comments are in addition to the significant deficiencies presented in our
Independent Auditors’ Report, dated November 16, 2012, included in DOL’s FY 2012
Agency Financial Report. We summarized the status of all prior year comments in
Exhibit II. Comments involving internal control and other operational matters noted that
relate to IT will be presented in separate letters from the DOL Office of Inspector
General (OIG) to the appropriate Agency Heads.




                                                                                            Management Advisory Comments
                                                                                     For the Year Ended September 30, 2012
                                                      3                                    Report Number: 22-13-006-13-001
                            KPMG LLP is a Delaware limited liability partnership,
                            the U.S. member firm of KPMG International Cooperative
                            (“KPMG International”), a Swiss entity.
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General




Our audit procedures are designed primarily to enable us to form an opinion on the
consolidated financial statements, and therefore may not bring to light all weaknesses in
policies or procedures that may exist. We aim, however, to use our knowledge of DOL’s
organization gained during our work to make comments and suggestions that we hope
will be useful to you.

We would be pleased to discuss these comments and recommendations with you at
any time.

DOL’s response to the comments identified in this report is presented in Exhibit I. We
did not audit DOL’s response and, accordingly, we express no opinion on it.

This communication is intended solely for the information and use of DOL’s
management and the DOL OIG, and is not intended to be and should not be used by
anyone other than these specified parties.

Very truly yours,




                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2012
                                        4                     Report Number: 22-13-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I



Comments and Recommendations
1. Unsupported and/or Incorrect Expenses

We selected 343 non-benefit, non-payroll expense transactions recorded in the New
Core Financial Management System (NCFMS) for the year ended September 30, 2012,
for testing. Based on our procedures, we identified the following errors:

•   15 transactions were recorded in the improper period;
•   12 transactions did not have sufficient supporting documentation; and
•   1 transaction was incorrectly recorded twice.

The expenses and reversals recorded in the improper period were primarily because of
management correcting errors related to prior years. Management recorded these
adjustments as current year expenses instead of adjusting beginning balances because
they determined the expenses were immaterial; however, management did not
document this assessment. In addition, the recording of incorrect or unsupported
expense transactions was caused by insufficient review of related documentation to
ensure the amounts were correct and the transactions were supported before posting
them to the general ledger.

The 28 errors identified above resulted in a $27.1 million known net misstatement of
total non-benefit, non-payroll expenses as of September 30, 2012. Based on our
sample results, we projected a most likely overstatement of $189.3 million, with
86 percent confidence that the errors ranged from an overstatement of $88 thousand to
an overstatement of $378.5 million.

The Government Accountability Office (GAO) Standards for Internal Control in the
Federal Government (Standards) states:

       Internal control and all transactions and other significant events need to be
       clearly documented, and the documentation should be readily available for
       examination. The documentation should appear in management
       directives, administrative policies, or operating manuals and may be in
       paper or electronic form. All documentation and records should be
       properly managed and maintained.

In addition, the Standards also states:

       Transactions should be promptly recorded to maintain their relevance and
       value to management in controlling operations and making decisions. This
       applies to the entire process or life cycle of a transaction or event from the

                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2012
                                          5                      Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

      initiation and authorization through its final classification in summary
      records. In addition, control activities help to ensure that all transactions
      are completely and accurately recorded.

Recommendations

We recommend the Chief Financial Officer:

1. Develop and implement monitoring controls to ensure that individuals are performing
   sufficient reviews of expenses and related documentation before expenses are
   posted to ensure they are adequately supported; and
2. Develop and implement a process to identify and accumulate prior period errors that
   management determined to be immaterial and corrected through the current year
   activity. Management’s materiality assessment should be documented.

Management’s Response

OCFO management believes that it has sufficient expense oversight and monitoring
procedures in place and proper documentation requirements. Management periodically
reviews existing procedures for reviews of expenses and related documentation to
ensure they are adequately supported. Management will emphasize these procedures
as needed.

In the normal course of business there are adjustments to amounts recorded or that
should have been recorded in a prior period. However, those amounts in fiscal year
(FY) 2012 were clearly not material. Management does review for significant
transactions that relate to prior periods or those that need to be reported to Treasury.

Management will review this process to determine if it should be formalized including
materiality thresholds. The review will be completed and procedures changed if
required.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

2. Insufficient Supporting Documentation for Certain Undelivered Orders (UDO)

During the FY 2012 substantive test work over UDOs, we selected 237 UDO-related
document IDs recorded in NCFMS as of June 30, 2012, for testing. Based on our
procedures, we identified 28 errors that resulted in a known understatement of UDOs in
the amount of $16.9 million. In summary, we identified the following:


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        6                      Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

•   19 UDOs did not have sufficient supporting documentation;
•   7 UDOs had periods of performance that expired and should have been deobligated
    as of June 30, 2012; and
•   2 UDOs were invalid as the related funds had been cancelled.

In addition, we selected 230 transactions from the UDO activity for the period July 1
through September 30, 2012, for testing. Our procedures identified 8 errors related to
UDO activity with insufficient supporting documentation, which resulted in a known
understatement in the amount of $5.6 million.

As of September 30, 2012, the above errors resulted in a $22.4 million total known net
misstatement of UDO balances. Based on our sample results, we projected a most
likely overstatement of $114.8 million, with 86 percent confidence that the errors ranged
between an overstatement of $451 million and an understatement of $221.4 million.

We also selected a statistical sample of three UDO balances reported in NCFMS as of
September 30, 2012, that had no activity during the fourth quarter for testing. In the
sample, we identified one invalid UDO related to the Office of Job Corps, which was a
duplicate entry in NCFMS that had not been corrected as of September 30, 2012. This
error resulted in a known overstatement of $1.3 million. Based on our sample results,
we projected a most likely overstatement of $314.1 million, with 86 percent confidence
that the errors ranged between an overstatement $769.1 million and an understatement
of $140.9 million.

The existence of unsupported UDO balances and activity was caused by insufficient
review of related documentation to ensure the amounts were correct and the
transactions were supported before posting the transactions to the general ledger.
The invalid UDOs were a result of insufficient monitoring controls to ensure that these
balances were properly and timely deobligated. Furthermore, the duplicate entry
occurred because of an error during the general ledger migration to NCFMS in FY 2010
in which the document type was initially incorrect upon migration; a second entry was
subsequently recorded in NCFMS with the correct document type without reversing the
original entry.

U.S. Code (USC) Title 31 (31 USC), Section 1501, Documentary Evidence Requirement
for Government Obligations, states:

       An amount shall be recorded as an obligation of the United States
       Government only when supported by documentary evidence of a binding
       agreement between an agency and another person (including an agency)
       that is (a) in writing, in a way and form, and for a purpose authorized by
       law; and (b) executed before the end of the period of availability for
       obligation of the appropriation or fund.


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        7                      Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

In addition, 31 USC, Section 1554, Audit, control, and reporting, states:

      The head of each agency shall establish internal controls to assure that an
      adequate review of obligated balances is performed to support the
      certification required by section 1108(c) of this title.

GAO’s Standards states:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination.      The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

The Standards also states:

      Transactions should be promptly recorded to maintain their relevance and
      value to management in controlling operations and making decisions.
      This applies to the entire process or life cycle of a transaction of event
      from the initiation and authorization through its final classification in
      summary records. In addition, control activities help to ensure that all
      transactions are completely and accurately recorded.

Recommendations

Given the pervasive nature of the exceptions identified, we again recommend the Chief
Financial Officer work with other Department of Labor (DOL) agencies to provide
training to address:

1. The minimum procedures that should be performed to complete an adequate
   supervisory review of transactions prior to entry in the general ledger;
2. The minimum procedures that should be performed to monitor obligation balances
   for validity; and
3. The minimum documentation requirements needed to sufficiently support recorded
   transactions.

In addition, the Chief Financial Officer should perform of an analysis of UDOs to identify
remaining errors that resulted from the migration to NCFMS, and make corrections as
necessary.




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        8                       Report Number: 22-13-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

Management’s Response

OCFO will continue to work with DOL agencies to ensure that: 1) supervisory reviews of
transactions are completed; 2) documentation needed to support recorded transactions
is maintained; and 3) procedures to monitor obligation balances are performed. OCFO
will continue to provide technical assistance and training to DOL agencies as needed.

In FY 2013, OCFO and DOL agencies will continue to research and resolve migrated
balances until the remaining balances are considered not to be significant to warrant
further work.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

3. Insufficient Monitoring of UDOs

The Office of the Chief Financial Officer’s (OCFO) Division of Financial Reporting (DFR)
performs its monitoring of UDOs on a monthly basis. As a result, we selected the month
of January 2012 to test the design and implementation of this control; however, we
noted that the OCFO-DFR did not provide the unliquidated obligations report
representing UDOs open as of December 31, 2011, to the responsible agencies to
determine whether any UDO balances needed to be deobligated.

This situation was primarily caused by the fact that the December 2011 monitoring of
UDOs was not completed timely. As such, the OCFO-DFR decided to bypass its
January 2012 monitoring, as the timeline to commence the monitoring control for
February 2012 was approaching. Additionally, the OCFO did not have formal policies
and procedures in place requiring OCFO-DFR to perform a monthly monitoring control
over UDOs, and management indicated that it was ultimately the agencies’
responsibility to review their obligations. Without effective controls to monitor the status
of UDOs and deobligate remaining funds timely, UDOs may be overstated.

31 USC, Section 1501, states:

       An amount shall be recorded as an obligation of the United States
       Government only when supported by documentary evidence of a binding
       agreement between an agency and another person (including an agency)
       that is (a) in writing, in a way and form, and for a purpose authorized by
       law; and (b) executed before the end of the period of availability for
       obligation of the appropriation or fund.



                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2012
                                         9                       Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

In addition, 31 USC, Section 1554, states:

      The head of each agency shall establish internal controls to assure that an
      adequate review of obligated balances is performed to support the
      certification required by section 1108(c) of this title.

GAO’s Standards states:

      Control activities occur at all levels and functions of the entity. They
      include a wide range of diverse activities such as approvals,
      authorizations, verifications, reconciliations, performance reviews,
      maintenance of security, and the creation and maintenance of related
      records which provide evidence of execution of these activities as well as
      appropriate documentation. Control activities may be applied in a
      computerized information system environment or through manual
      processes.

Also, Office of Management and Budget (OMB) Circular No. A-123, Management’s
Responsibility for Internal Control, states:

      Management is responsible for establishing and maintaining internal
      control to achieve the objectives of effective and efficient operations,
      reliable financial reporting, and compliance with applicable laws and
      regulations. Management shall consistently apply the internal control
      standards to meet each of the internal control objectives and to assess
      internal control effectiveness.

Recommendations

We recommend the Chief Financial Officer develop and implement formal policies and
procedures to:

1. Periodically obtain and review the results of the agencies’ review of their UDOs, and
2. Confirm that agencies have deobligated expired and invalid UDOs timely in the
   general ledger or deobligate them on the agencies’ behalf.

Management’s Response

OCFO management believes that it has sufficient UDO oversight and monitoring
procedures in place and will continue to periodically obtain and review the results of the
agencies’ review of their unliquidated obligations, as well as continue with ongoing
efforts to confirm and ensure the deobligation of expired and invalid UDOs timely in the
general ledger.



                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        10                      Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

4. Unsupported Non-federal Accounts Payable

During our FY 2012 audit procedures over non-federal accounts payable, we selected a
statistical sample of three items with credit balances for testing and determined that two
of the items dated back to FY 2009 and were not supported by documentation. These
two errors resulted in a known overstatement of $38,654 as of September 30, 2012.
Based on our sample results, we projected a most likely overstatement of approximately
$377.4 million, with 86 percent confidence that the errors ranged from an overstatement
of $105.2 million to an overstatement of $649.7 million.

In addition, during our review of the NCFMS transaction detail for non-federal accounts
payable, we identified abnormal debit balances (i.e., understatements) totaling $256.8
million.

The errors noted above date back to the implementation of NCFMS in FY 2010, and the
OCFO had not performed a comprehensive analysis over non-federal accounts payable
balance to identify all unsupported transactions and record a correcting journal entry.
The OCFO determined that the non-federal accounts payable balance was not material
to the financial statements as a whole and therefore did not perform such an analysis
because of competing priorities.

OMB Circular No. A-123 states:

      Reliability of financial reporting means that management can reasonably
      make the following assertions: All reported transactions actually occurred
      during the reporting period…and transactions should be promptly
      recorded, properly classified, and accounted for in order to prepare timely
      accounts and reliable financial and other reports.

GAO’s Standards states:

      Transactions should be promptly recorded to maintain their relevance and
      value to management in controlling operations and making decisions. This
      applies to the entire process or life cycle of a transaction or event from the
      initiation and authorization through its final classification in summary
      records. In addition, control activities help to ensure that all transactions
      are completely and accurately recorded.



                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        11                      Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

Recommendation

We recommend the Chief Financial Officer perform a comprehensive analysis over non-
federal accounts payable to identify transactions that are not supported and record
correcting entries both in the subsidiary ledger and the general ledger, as appropriate.

Management’s Response

Management will complete a review of significant account balances and make
adjustments as needed. ETA completed a significant portion of their review in FY 2012.
This review will be completed in August 2013.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

5. Unsupported Cost Allocation Percentages

During audit procedures over DOL’s financial reporting process for FY 2012, DOL did
not provide evidence to support the basis of the following cost allocations:

•   Certain expenses that were deemed agency specific for the Employment and
    Training Administration (ETA) and Veterans’ Employment and Training Service
    (VETS) among multiple programs on the Statement of Net Cost (SNC), and
•   Certain program administration and salary expense amounts, such as legal services,
    information technology (IT) support, executive direction, administration and
    management, and federal contract compliance, that were cross-cutting in nature to
    multiple programs on the SNC and multiple agencies within Note 15, Consolidated
    Statement of Net Cost by Major Program Agency, to the consolidated financial
    statements.

OCFO personnel utilized allocation percentages that were developed in prior years, but
they were unable to locate the support behind such percentages. Additionally, OCFO
personnel did not perform a current year analysis to determine whether prior year
percentages continued to be appropriate.

Without proper evidence to support various cost allocations among programs and
agencies, DOL may misstate the presentation of the SNC and the disclosure in Note 15.




                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        12                     Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

Statement of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial Cost
Accounting, Paragraph 91(b), states:

      Costs of support services that a responsibility segment receives from
      other segments or entities. The support costs should be first directly
      traced or assigned to various segments that receive the support services.
      They should then be assigned to outputs.

SFFAS No. 4, Paragraph 122, states:

      Some responsibility segments of an entity may provide supporting
      services or deliver intermediate products to other segments within the
      same entity. The costs of the supporting services and intermediate
      products should be assigned to the segments that receive the services
      and products.

Additionally, SFFAS No. 4, Paragraph 134, states:

      These supporting costs can be allocated to segments and outputs on a
      prorated basis. The cost allocations may involve two steps. The first step
      allocates the costs of support services to segments, and the second step
      allocates those costs to the outputs of each segment.

OMB Circular No. A-136, Financial Reporting Requirements, Section II.4.4.1, states:

      The SNC should show the reporting entity’s net cost of operations, as a
      whole, by the major programs related to the major goal(s) and output(s)
      described in the entity’s strategic and performance plans…. The program
      structure should report full costs and related exchange revenue for each
      program as defined by the entity.

Finally, GAO’s Standards states:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.




                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        13                     Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

Recommendations

We recommend the Chief Financial Officer enhance policies and procedures to require:

1. The performance of an annual analysis of cost allocations among programs and
   agencies; and
2. The maintenance of documentation supporting this analysis and related revisions
   made, if necessary, to the cost allocation methodology.

Management’s Response

OCFO will perform a review to determine if an update to the allocation percentages is
needed and prepare supporting documentation of the percentages and the related cost
allocation methodology to be utilized. This work should be completed by July 31, 2013.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

6. Insufficient Controls over Certain Budgetary Transactions

We selected a sample of 26 budgetary and proprietary transactions related to
appropriations that were recorded in NCFMS as of June 30, 2012, for testing. The
Departmental Budget Center (DBC) was responsible for processing the budgetary
entries and the OCFO was responsible for processing the proprietary entries for these
transactions. Based on our procedures, we determined the following:

•   Both the budgetary and proprietary entries for 11 of the 26 transactions tested were
    prepared and approved by the same individual through the NCFMS budget module.
•   The proprietary entries for 10 of the 26 transactions tested were prepared and
    approved by the same individual through the NCFMS budget module.

The OCFO and DBC utilized DOL’s shared service provider to process 19 of the 21
exceptions noted above as batches through the NCFMS budget module because of the
significant number of underlying transactions. DOL did not have policies and procedures
in place that required batch transactions processed by the shared service provider to be
approved in NCFMS by a separate individual to evidence that the transactions were
recorded appropriately.

In addition, 2 of the 21 exceptions were prepared and approved by the same OCFO
employee because the individual’s privileges in NCFMS were not configured correctly.


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        14                     Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

The individual’s NCFMS privileges were subsequently corrected after this matter was
brought to management’s attention.

Without the proper independent review of budget transactions and proper segregation
of duties, the risk increases that a material error would not be prevented or detected
and corrected in a timely manner.

GAO’s Standards states:

      Key duties and responsibilities need to be divided or segregated among
      different people to reduce the risk of error or fraud. This should include
      separating the responsibilities for authorizing transactions, processing and
      recording them, reviewing the transactions, and handling any related
      assets. No one individual should control all key aspects of a transaction or
      event.

Recommendations

We recommend the Chief Financial Officer:

1. Develop and implement policies and procedures requiring batch transactions
   processed by the shared service provider to be approved in NCFMS by a separate
   individual to ensure the transactions were properly posted; and
2. Periodically review the privileges of NCFMS approvers to ensure their privileges are
   configured appropriately.

Management’s Response

Management believes that the current procedures are appropriate, but will review such
procedures as recommended by the auditors. This should be completed by
June 30, 2013. Approval privileges are reviewed annually through the recertification
process.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

7. Insufficient Review of the Budgetary to Proprietary Reconciliation

During our test work performed over the FY 2012 quarterly budgetary to proprietary
reconciliations, we selected two quarters to determine whether the reconciliations were
performed timely and material differences were properly explained and documented. In
the reconciliation performed as of September 30, 2012, we identified material variances

                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        15                     Report Number: 22-13-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

totaling approximately $458 million related to various funds in Tie-Point 19 – Net
Position Analysis Unexpended Appropriation which had not been properly explained
and documented. The OCFO did not document the explanations for the Tie-Point 19
material variances because management believed they were addressed in other
Tie-Point explanations.

If material variances in the budgetary to proprietary reconciliations are not properly
explained and documented, errors may not be detected and corrected in a timely
manner, causing misstatements in budgetary accounts and imbalances in budgetary to
proprietary relationships.

GAO’s Standards states:

       Control activities occur at all levels and functions of the entity. They
       include a wide range of diverse activities such as approvals,
       authorizations, verifications, reconciliations, performance reviews,
       maintenance security, and the creation and maintenance of related
       records which provide evidence of execution of these activities as well as
       appropriate documentation. Control activities may be applied in a
       computerized information system environment or through manual
       processes.

It addition, the Standards states:

       Internal control should provide reasonable assurance that the objectives of
       the agency are being achieved in the following categories:
       •   Effectiveness and efficiency of operations including the use of the
           entity’s resources.
       •   Reliability of financial reporting, including reports on budget execution,
           financial statements, and other reports for internal and external use.
       •   Compliance with applicable laws and regulations.

Recommendation

We recommend the Chief Financial Officer update the budgetary to proprietary
reconciliation procedures to require that explanations for all material Tie-Point material
variances be documented.

Management’s Response

Management agrees with the recommendation and will update the procedures to
require that explanations for all material Tie-Point variances be documented. The
reason there was no specific documentation in Tie Point (TP) 19 is that TP 19 is a
comprehensive TP that encompasses differences related to other TPs. TP 2 (Budgetary

                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2012
                                         16                      Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Cash to Proprietary Cash), TP 5 (Advances to UDO Prepaid) and TP 17 (Proprietary
Appropriations Received to Budgetary Appropriations Received) account for almost all
of the United States Standard General Ledger (USSGL) accounts used in TP 19. The
$458 million is primarily driven by the $546 million difference between two funds (direct
and reimbursable) within Treasury Appropriation Fund (TAF) 16X1521. This difference
was identified in TP 2 analysis at the fund level (which encompasses USSGL accounts
included in TP 19; direct funds only). Although the difference appears in TP 19 at the
TAF level, this difference does not have any Financial Statement impact.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

8. Non-Compliance with the United States Standard General Ledger (USSGL) at
   the Transactional Level

During FY 2012, OCFO personnel recorded certain journal entries to correct the
misclassified amounts identified in the prior year to their proper USSGL accounts in the
general ledger. In addition, they implemented policies and procedures to record certain
of these transactions properly in the current year. They also reviewed certain significant
transactions for USSGL compliance and made corrections as necessary. However,
during test work over significant process areas, we identified the following instances of
non-compliance with the USSGL related to transactions greater than $50 million:

•   An increase of $616 million in Unemployment Trust Fund (UTF) overpayment
    receivables was incorrectly recorded in the general ledger with a credit to Benefit
    Expense (account 6400) instead of Other Expenses Not Requiring Budgetary
    Resources (account 6790). DOL had not corrected this error as of September 30,
    2012.
•   An expenditure transfers payable (account 2155) in the UTF in the amount of $235
    million was incorrectly recorded in the general ledger as Other Liabilities with
    Related Budgetary Obligations (account 2190) as of December 31, 2011. This error
    was subsequently corrected prior to September 30, 2012.
•   Based on testing a sample of 26 appropriation transactions, we determined that the
    proprietary entries were not posted simultaneously with the corresponding budgetary
    entries for 18 of the 26 transactions selected. On average, the entries we identified
    were recorded approximately 20 days apart; however, we identified 3 transactions
    that were recorded 50 days or more apart.

Regarding the first two issues above, DOL management carried forward certain
incorrect procedures from its legacy general ledger system to its new general ledger
system, and while management acknowledges that changes are required, competing

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        17                      Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

priorities prevented the completion of all necessary corrections of misclassified amounts
during FY 2012.

The budgetary and proprietary appropriation entries were not recorded simultaneously
because they were recorded by two separate agencies. The DBC recorded the
budgetary appropriation when the approved Apportionment Schedule was received, and
the OCFO recorded the proprietary entry once the Appropriation Warrant was
processed by the U.S. Department of the Treasury (Treasury).

As such, DOL was not fully compliant with the USSGL at the transactional level, as
required by the Federal Financial Management Improvement Act of 1996 (FFMIA). In
addition, not recording the proprietary and budgetary entries simultaneously to
recognize appropriations received could result in (a) potential abnormal balances in
Fund Balance with Treasury (FBWT) upon disbursements for current year annual and
multi-year funds and (b) imbalances in budgetary/proprietary relationships.

Public Law 104–208, Section 803(a), Implementation of Federal Financial Management
Improvements, states:

      Each agency shall implement and maintain financial management
      systems that comply substantially with Federal financial management
      systems requirements, applicable Federal accounting standards, and the
      USSGL at the transaction level.

Furthermore, OMB Circular No. A-127, Financial Management Systems, Section 8.C(3),
states:

      Financial events shall be recorded applying the requirements of the
      USSGL. Application of the USSGL at the transaction level means that
      each time an approved transaction is recorded in the system, it will
      generate appropriate general ledger accounts for posting the transaction
      according to the rules defined in the USSGL guidance.

SFFAS No. 7, Accounting for Revenue and Other Financing Sources, Paragraph 71,
states:

      Appropriations, until used, are not a financing source. They should be
      recognized in capital as "unexpended appropriations" (and among assets
      as "funds with Treasury") when made available for apportionment, even if
      a Treasury Warrant has not yet been received, or the amount has not
      been fully apportioned.




                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        18                     Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Furthermore, GAO’s Standards states:

      Transactions should be promptly recorded to maintain their relevance and
      value to management in controlling operations and making decisions. This
      applies to the entire process or life cycle of a transaction or event from the
      initiation and authorization through its final classification in summary
      records. In addition, control activities help to ensure that all transactions
      are completely and accurately recorded.

Recommendations

We recommend the Chief Financial Officer:

1. Record journal entries to correct the misclassified amounts identified above to their
   proper USSGL accounts in the general ledger;
2. Develop and implement procedures to properly record these transactions in the
   future; and
3. Assign one agency to be responsible for recording both the budgetary and
   proprietary journal entries for economic events, or if separate agencies continue to
   record the entries, develop and implement procedures that require those agencies to
   coordinate appropriately to ensure almost simultaneous recording.

Management’s Response

Re: Unemployment Trust Fund overpayment receivables

DOL concurs and will use SGL 6790 to record UTF benefit overpayments. Use of SGL
6400 had no effect on the financial statement classifications.

Re: expenditure transfers payable in the UTF

DOL concurs. This transaction was corrected in the second quarter of FY 2012.

The timing difference between the recording of the appropriation and recording the
warrant is due to established departmental procedures and not due to the fact that it is
recorded by two different offices. The enactment of the appropriation is recorded when
the Apportionment Schedule is received. The recording of the warrant is delayed until
the actual warrant is processed by Treasury.

We will reach out to Treasury to get their perspective/guidance as to how transactions,
where the warrant is received after the apportionment, should be recorded. Recording
the warrant prior to receipt would create differences with Treasury which we want to
avoid since it would cause problems in submitting the FACTS II report. For FACTS II we



                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        19                      Report Number: 22-13-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

would need to reverse the entry that recorded the warrant. This review should be
completed by June 30, 2013.

Auditors’ Response

Management indicated that actions have or will be taken to address the matters
identified in this comment. We will conduct follow-up procedures in FY 2013 to
determine whether corrective actions have been developed and implemented.

9. Deficiencies Noted in the Preparation of the Federal Managers’ Financial
   Integrity Act of 1982 (FMFIA) Draft Assurance Statement

During FY 2012, we noted certain improvements in DOL’s FMFIA process. For
example, the draft of the FY 2012 FMFIA assurance statement was provided to us
approximately 15 days earlier than in FY 2011. Also, the FY 2012 financial management
quarterly certifications, which serve as management’s assurance to the Secretary that
DOL was in compliance with FMFIA and FFMIA, were timely prepared and submitted to
the OCFO by the agency head, administrative officer, and financial officer of each DOL
agency.

However, we continued to identify certain deficiencies in the FMFIA process.
Specifically:

•   The final FMFIA assurance statement was unqualified with no significant
    deficiencies. This assessment was significantly different from our audit results, which
    included three significant deficiencies related to grants management, journal entries,
    and key financial and support systems. DOL’s internal control assessment was as of
    June 30, 2012, in contrast to the financial statement audit, which assessed internal
    controls for the entire year. This timing difference could lead to discrepancies in
    severity determinations. However, management has a history of disagreement with
    independent evaluations of its internal controls, as evidenced by the persistent
    nature of certain independent findings, including:

    •   Lack of Adequate Controls over Access to Key Financial and Support Systems
        (reported since FY 2001)
    •   Weaknesses over Journal Vouchers (reported since FY 2006)

    Additionally, management’s FY 2012 IT testing was limited to a consideration of
    deficiencies reported in all Statement on Standards for Attestation Engagements
    (SSAE) No. 16 reports relevant to DOL that were performed by third parties, and
    internal testing of prior year internally-identified deficiencies that were identified as
    remediated.

•   Although the OCFO improved its documentation of the final internal control
    assessments and related rationale, the OCFO did not timely deliver the FY 2012
                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2012
                                          20                     Report Number: 22-13-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

    Summary of Aggregated Deficiencies (SAD), which was used to track and assess
    DOL’s internally-identified control weaknesses, significant deficiencies, and material
    weaknesses, as applicable. We requested that the OCFO deliver the SAD on
    October 10, 2012; however, the OCFO delivered the SAD related to financial
    deficiencies on October 17, 2012, and the SAD related to IT deficiencies on
    October 19, 2012.

•   While the draft assurance statement was provided more timely in the current year
    than in the prior year, it was still provided one day after the agreed-upon due date.

The conditions above related to timeliness occurred because the internal deadlines
established by the OCFO did not require the internal control assessment team to submit
the draft assurance statement and SAD earlier than October 16, 2012, even though the
internal controls assessment was performed as of June 30.

As a result of the aforementioned issues, DOL’s FMFIA assessment process may not
be operating at a sufficiently detailed level to identify, evaluate, correct, and report all
significant deficiencies and material weaknesses, which could result in non-compliance
with the FMFIA. Furthermore, the issues related to timeliness could result in delays in
the year-end financial statement audit and reporting process.

FMFIA, Paragraph 3, states:

       …By December 31 of each succeeding year, the head of each executive
       agency shall, on the basis of an evaluation conducted in accordance with
       guidelines prescribed under paragraph (2) of this subsection, prepare a
       statement – that the agency’s systems of internal accounting and
       administrative control fully comply with the requirements of paragraph
       (1)…

Per OMB Circular No. A-123, Section IV.A:

       Sources of information include:…Audits of financial statements conducted
       pursuant to the Chief Financial Officers Act, as amended, including:
       information revealed in preparing the financial statements; the auditor’s
       reports on the financial statements, internal controls, and compliance with
       laws and regulations; and any other material prepared relating to the
       statements….Reviews of systems and applications conducted pursuant to
       the Computer Security Act of 1987.

OMB Circular No. A-123, Section IV.A, also states:

       Agency managers and employees should identify deficiencies in
       management controls from the sources of information described above. A
       deficiency should be reported if it is or should be of interest to the next

                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2012
                                         21                      Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

      level of management. Agency employees and managers generally report
      deficiencies to the next supervisory level, which allows the chain of
      command structure to determine the relative importance of each
      deficiency.

Department of Labor Manual Series 6, Chapter 112, Section B14, Financial
Management Responsibilities, states:

      …The CFO is responsible for preparing accurate and timely reports,
      including financial statements with performance measures, and reports
      prescribed under the Federal Managers’ Financial Integrity Act, the CFOA,
      and Amendments to the Inspector General Act.

Recommendations

We recommend the Chief Financial Officer:

1. Enhance documentation of DOL’s final internal control assessment and related
   rationale;
2. Enhance documentation of DOL’s consideration of relevant external audit results;
3. Enhance the FMFIA process to include additional testing of controls for DOL IT
   systems not covered by SSAE No. 16 reports to ensure all significant deficiencies
   and material weaknesses are identified; and
4. Revise the OCFO internal financial reporting timeline to include a separate
   deliverable for a preliminary draft FMFIA assurance statement and SADs due
   annually in September.

Management’s Response

Management believes the FMFIA Assurance Statement preparation process was
thorough and timely and in accordance with FMFIA and external reporting requirements.

The fact that DOL and the auditors did not agree on the significance of the deficiencies
does not represent a weakness in the preparation of the FMFIA Assurance Statement.

Management will consider the auditors recommendations in performing the assessment
in FY 2013 and attempt to move up the completion date of the work.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        22                     Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

10. Weaknesses Identified in the Review of Payroll Suspense Reports

We tested the resolution process for personnel and payroll actions that were requested
by DOL but were not processed by the U.S. Department of Agriculture’s National
Finance Center (NFC), DOL’s third-party payroll service provider. Such items are
summarized in a suspense report each pay period for each Human Resources (HR)
office. We selected a sample of 15 payroll suspense reports during the period
October 1, 2011, through June 30, 2012, and identified the following weaknesses in the
review of payroll suspense reports:

•   4 instances where corrective actions on identified errors were not completed in a
    timely manner (i.e., by the second pay period after initial identification), and
•   1 instance where the HR office did not have sufficient and appropriate
    documentation to support that errors were adequately researched and corrective
    actions were initiated and completed in a timely manner.

Additionally, none of the FY 2011 recommendations related to payroll suspense reports
were implemented as of September 30, 2012.

These exceptions occurred because the Office of the Assistant Secretary for
Administration and Management’s (OASAM) Standard Operating Procedure Guidelines
for HR Payroll Suspense Process did not specifically state the minimum documentation
requirements for the review of suspense reports and the clearing of items listed on the
suspense reports.

Furthermore, OASAM’s failure to adequately monitor compliance with the Standard
Operating Procedure Guidelines for HR Payroll Suspense Process was partially
attributed to the decentralized HR organization within DOL. As a result of the
organizational structure, OASAM had difficulty obtaining the needed documentation to
monitor that suspense reports were being properly researched and resolved in a timely
manner, and adequately reviewed.

These conditions increase the risk that the suspense reports are not reviewed daily and
related errors are not appropriately corrected in a timely manner, which may result in
misstatements in payroll-related accounts.

GAO’s Standards states:

       Internal control and all transactions and other significant events need to be
       clearly documented, and the documentation should be readily available for
       examination. The documentation should appear in management
       directives, administrative policies, or operating manuals and may be in
       paper or electronic form. All documentation and records should be
       properly managed and maintained.


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                         23                     Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

In addition, OASAM’s Standard Operating Procedures Guidelines for HR Payroll
Suspense Process states:

      Each day the HR specialist will work actions in the PeoplePower
      application. If actions fail, the status will be Suspense; the actions should
      be reviewed and researched to determine the appropriate
      correction/change necessary to allow the action to pass the edits.

Recommendations

We recommend the Assistant Secretary for Administration and Management update the
Standard Operating Procedures Guidelines for the HR Payroll Suspense Process to
include: (a) minimum documentation requirements to support the review of suspense
reports and the clearing of items listed on the suspense reports, and (b) requirements
related to the time period and method of retention of such documentation.

We also recommend the Director of Human Resources, Human Resource Center,
OASAM, monitor compliance with the Standard Operating Procedures Guidelines for
the HR Payroll Suspense Process.

Management’s Response

OASAM updated the Standard Operating Procedures (SOP) Guidelines for the HR
Suspense Process to include minimum documentation requirements to support the
review of suspense reports and the clearing of items listed on the suspense reports and
also include requirements related to the time period and method of retention of such
documentation and posted the SOP on LaborNet.

The Director of Human Resources, Human Resource Center, OASAM, will monitor
compliance with the Standard Operating Procedures Guidelines for the HR Suspense
Process.

Auditors’ Response

Management indicated that actions have and will be taken to address the matters
identified in this comment. We will conduct follow-up procedures in FY 2013 to
determine whether corrective actions have been developed and implemented.

11. Improvements Needed over the Review and Reconciliation of Payroll-related
    Information Provided by the NFC

Based on our testing of a sample of 27 Payroll/Time and Attendance Reconciliation
Reports (Reconciliation Reports) for pay cycles during the period October 1, 2011,
through March 31, 2012, we noted the following deficiencies:


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        24                     Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

•   22 Reconciliation Reports were not evidenced as being prepared timely (i.e., bi-
    weekly). Four were evidenced as prepared between 30 and 60 days after the end of
    the pay period, and 18 were evidenced as prepared greater than 60 days after the
    end of the pay period. Of these 22 Reconciliation Reports, 13 were evidenced as
    prepared after the audit request date.
•   One Reconciliation Report review certification form did not indicate evidence of
    supervisor review.

These exceptions occurred because the OCFO policy and procedures issued in July
2009, requiring the responsible HR official to review the Reconciliation Reports and
investigate issues identified, were not adequately enforced by the supervisors of those
HR officials. In addition, for one of our sample items, the HR official failed to gain the
necessary supervisory signature on the reconciliation, which was an oversight.

Additionally, we determined that the OCFO did not routinely perform a monitoring
control related to Reconciliation Reports during FY 2012; therefore, we were unable to
test it. This failure to adequately monitor compliance with the July 2009 policy and
procedures was partially attributed to the decentralized HR organization within DOL. As
a result of the organizational structure, the OCFO had difficulty obtaining the needed
documentation to monitor that the Reconciliation Reports were properly completed, in a
timely manner, and adequately reviewed. On April 24, 2012, the OASAM Human
Resource Center (HRC) issued Internal Control Directive (ICD) No. HRC-3 (ICD HRC-
3), which revised the requirements for reviewing, researching, certifying, and reporting
items identified on the Reconciliation Reports and superseded the requirements set
forth in the OCFO policy and procedures issued in July 2009.

Furthermore, DOL was unable to provide any policies and procedures related to
reconciling deductions data, such as but not limited to employer withholdings, provided
by NFC on a bi-weekly basis to DOL’s records to arrive at an employee’s net pay and
total benefits expense. DOL did not develop and implement such policies and
procedures because management believed other internal controls were sufficiently
designed and operating effectively to mitigate related risks.

Untimely and incomplete reconciliation controls around the NFC compensation outputs
and the lack of related monitoring controls increase the risk that payroll-related items
may be misstated because of errors in payroll processing by NFC. Such payroll-related
items include accrued leave liabilities, various employee and employer withholdings
liabilities, benefit expenses, and operating expenses.

GAO’s Standards states:

       Internal control should generally be designed to assure that ongoing
       monitoring occurs in the course of normal operations. It is performed
       continually and is ingrained in the agency’s operations. It includes regular


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        25                      Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

DOL’s ICD HRC-3 states, “Payroll time and attendance reconciliations are to be
prepared bi-weekly.”

ICD HRC-3 also states:

      Human Resource officers are responsible for ensuring that the annotated
      Payroll Time and Attendance report is fully and contemporaneously
      completed relative to each bi-weekly Payroll/T&A Report, and that such
      form is certified by both the human resources staff member who
      conducted the review and his/her supervisor.

Federal agencies that use external service providers, such as the NFC, should have
controls in place to ensure the accuracy of processing outputs. As stated by the United
States Department of Agriculture’s Office of Inspector General in its FY 2012 Report No.
11401-0004-11, Statement on Standards for Attestation Engagements No. 16 Report on
Controls at the National Finance Center:

      NFC provides services with the understanding that the user entity
      implements certain controls…While NFC’s processing control activities
      and procedures are designed to ensure system, application and data
      security and integrity, it is the user’s entity’s responsibility to establish,
      implement, and maintain their internal controls to ensure that input
      submitted to NFC is complete, valid, and authorized. Additionally, NFC
      sends certain data and reports to its user entities as a control for their
      review. NFC’s user entities also have the responsibility to notify NFC,
      through their Client Management Representative, of their discovery of any
      unauthorized or improper transactions. Accordingly, all users of NFC
      services should establish their own internal controls or procedures to
      complement those of NFC.

Additionally, the Memorandum for Human Resource Officers Administrative Officers,
Reconciling Payroll Data between the Department of Labor and the National Finance
Center, Payroll/Time and Attendance Reconciliation Report, issued in July 2009, states:

      The servicing office for each Personnel Office Identifier Code is required
      to review the discrepancies and complete the Payroll/Time & Attendance
      Reconciliation & Review form no later than close of business on the
      second Friday following the official pay date for each pay period…The
      servicing office for each POI is required to resolve the discrepancies by
      the end of the following pay period.



                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        26                     Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Recommendations

We recommend the Director of Human Resources, HRC, OASAM:

1. Continue implementation and monitoring of ICD HRC-3 and its requirements for
   reviewing, researching, certifying, and reporting items identified on the
   Reconciliation Reports.
2. Develop, implement, and monitor policies and procedures for reconciling deductions
   data provided by NFC on a bi-weekly basis to DOL’s records to arrive at an
   employee’s net pay and total benefits expense.

Management’s Response

OASAM HRC will continue implementation and monitoring of HRC ICD No. HRC-3 and
its requirements for reviewing, researching, certifying, and reporting items identified on
the Reconciliation Reports.

OASAM HRC will ensure that the procedures for reconciling and monitoring deduction
data are being followed and properly documented.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

12. Improvements Needed in the Reconciliation of FBWT

During FY 2012, the OCFO made some progress in addressing FY 2011
recommendations related to the reconciliation of FBWT. Specifically, the OCFO
developed a “FBWT Reconciliation Preparation and Review Checklist” and
reconciliation template to address the prior year recommendations related to the
reinstatement of a proper reconciliation process and maintenance of sufficient
documentation to support the research and resolution of identified differences. In
addition, the OCFO began implementing a quality control process for reviewing the
monthly Government-wide Accounting (GWA) Reconciliations prepared by other
agencies to ensure that FBWT is not materially misstated.

However, based on the examination of 25 GWA Account Statement reconciliations and
the related supervisory reviews for January 2012, we noted that improvement was still
needed in the FBWT reconciliation process. Specifically, we identified the following:

•   The January 2012 GWA Account Statement reconciliations for the Treasury Account
    Fund Symbols (TAFS) identified below did not contain sufficient supporting
    documentation to evidence the investigation and determination of specific causes of

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        27                      Report Number: 22-13-006-13-001
                                                                           Prepared by KPMG LLP
                                       for the U.S. Department of Labor—Office of Inspector General
                                                                                            Exhibit I

    all differences and initiation of corrective actions. In addition, all differences were not
    resolved timely (i.e., within three months):

    • 16121200 Salaries and Expenses, Mine Safety and Health Administration
    • 16X0169 Special Benefits for Disabled Coal Miners, Employment Standards
      Administration
    • 16120172 Program Administration, Employment and Training Administration
    • 16X8042 Unemployment Trust Fund
    • 16120400 Salaries and Expenses, Occupational Safety and Health
      Administration

•   Prior month differences of $52,000 and $2.4 million for TAFS 16080174 and
    16100174, Training and Employment Services, respectively, were unresolved since
    September 30, 2011.

•   The January 2012 GWA Account Statement reconciliation for TAFS 16120326,
    Federal Unemployment Benefits and Allowances, and TAFS 16X1524,
    Administrative Expenses, Energy Employees Occupational Illness Compensation
    Fund, were not reviewed until July 2012 and April 2012, respectively, which was not
    considered timely.

These issues occurred because the OCFO had not fully implemented an effective
quality review process to ensure that other DOL agencies were maintaining sufficient
documentation to support the research and resolution of differences identified in the
monthly GWA Account Statement reconciliations. In addition, the OCFO’s policies and
procedures did not specify the time period in which prior month outstanding differences
must be resolved or the date by which the review of the monthly reconciliations should
be completed.

Differences that are not properly researched and resolved timely could potentially
compromise the reliability of FBWT balances, other USSGL account balances contra to
the USSGL 1010 account, and Treasury’s published financial reports.

Treasury Financial Manual, March 2012, (TFM) Volume 1, Part 2, Chapter 5100, states:

        Monthly, they (agencies) must reconcile the USSGL account 1010
        balances for each fund symbol with FMS’s records … Agencies should
        document their reconciliations and make them available to auditors and
        Treasury if requested. Agencies also should ensure that all adjustments
        are researched and traceable to supporting documents.

Treasury’s FBWT Reconciliation Procedures, A Supplement to the Treasury Financial
Manual, 1 TFM 2-5100 March 2012 (Reconciliation Procedures), states, “Federal
agencies must … resolve all differences between the balances reported on their G/L
FBWT accounts and balances reported on the GWA Account Statement.”

                                                                   Management Advisory Comments
                                                            For the Year Ended September 30, 2012
                                           28                     Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

The Reconciliation Procedures also states that Federal agencies should not “…permit
prior month differences to remain outstanding for more than 3 months…”

Furthermore, the Reconciliation Procedures states that:

      …each financial system’s policies and procedures should provide for
      regular and routine reconciliation of G/L accounts, thorough investigation
      of differences, determination of specific causes of differences, and
      initiation of corrective action.

GAO’s Standards states:

      Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

In addition, the Standards states:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

Recommendations

We recommend the Chief Financial Officer:

1. Enhance and fully implement the new quality control process for reviewing monthly
   GWA Account Statement reconciliations prepared by other DOL agencies to ensure
   that sufficient documentation to support the research and resolution of individual
   differences is maintained; and

2. Enhance DOL’s GWA Account Statement reconciliation policies and procedures to
   specify that: (a) all differences identified in the reconciliation process be resolved
   within three months, and (b) monthly reconciliations be prepared and reviewed
   within a certain timeframe that allows for timely identification and resolution of
   differences (e.g., within 30 days of month-end).




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        29                      Report Number: 22-13-006-13-001
                                                                       Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                                                        Exhibit I

Management’s Response

The findings and recommendations noted by the auditor were based on a review of the
January 2012 reconciliations and do not fully recognize the progress made during the
remainder of FY 2012. Significant progress has been made in resolving prior period
differences.

Management will continue to review and revise the policies and procedures as needed
to improve the effectiveness and timeliness of the reconciliations.

Auditors’ Response

Management indicated that actions have and will be taken to address the matters
identified in this comment. We will conduct follow-up procedures in FY 2013 to
determine whether corrective actions have been developed and implemented.

13. Improvements Needed in the Monthly Statement of Differences (FMS 6652)
    Process

During FY 2012, we noted that DOL made some progress in implementing prior year
recommendations. For example, DOL resolved all prior reporting period differences
individually greater than $3 million reported on the FMS 6652 reports as of January 31,
2012. Furthermore, the absolute value of cumulative differences reported on the FMS
6652 reports for DOL as of January 31, 2012, was approximately $16.8 million, which
was an improvement from the prior year. In addition, the OCFO developed and
implemented protocols to ensure that personnel within the Division of Central
Accounting Operations (DCAO) were responsive to audit requests.

However, based on our testing of a sample of 14 FMS 6652 reconciliations and the
related supervisory reviews for the month of January 2012, and an examination of all
outstanding prior reporting period differences included on the FMS 6652 reports as of
January 31, 2012, we noted that improvement was still needed in the FMS 6652
reconciliation process. Our examination revealed the following deficiencies:

•   Seventeen agency location codes (ALC) within the Bureau of Labor Statistics (BLS),
    Office of Workers’ Compensation Programs (OWCP), Wage and Hour Division
    (WHD), ETA, OASAM, OCFO, and the Office of Federal Contract Compliance
    Programs (OFCCP) reported differences that were not resolved timely (i.e., within
    three months) as of January 31, 2012. These differences totaled an absolute dollar
    amount of $9 million and related to prior months ranging from October 2009 to
    August 2011.

•   OASAM did not perform sufficient FMS 6652 reconciliations and related supervisory
    reviews for January 2012. Specifically:


                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2012
                                       30                     Report Number: 22-13-006-13-001
                                                                          Prepared by KPMG LLP
                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                           Exhibit I

    •   The reconciliations for ALCs 16012014, 16012001, and 16012004 did not include
        sufficient evidence to support that the cause was identified and appropriate
        corrective action was initiated for each individual difference. In addition, certain
        individual differences identified on the related FMS 6652 reports for the month of
        January 2012 were not reconciled.
    •   The reconciliations for ALCs 16012014, 16012001, and 16012004 did not include
        a signature and/or date to evidence that the reconciliation was timely prepared
        and reviewed by someone other than the preparer.
    •   Approximately 37 percent, or $830,000, of the differences identified on the FMS
        6652 reports for ALCs 16012014, 16012001, 16012004, and 16012005 for the
        month of January 2012 were not resolved in a timely manner (i.e., within three
        months).

•   BLS did not perform sufficient FMS 6652 reconciliations and related supervisory
    reviews for the month of January 2012. Specifically:
    •   The reconciliation for ALC 16012011 did not include sufficient evidence to
        support that the cause was identified and appropriate corrective action was
        initiated for each individual difference. In addition, certain individual differences
        identified on the related FMS 6652 reports for the month of January 2012 were
        not reconciled. Further, approximately 47 percent, or $11,000, of these
        differences were not resolved in a timely manner.
    •   The reconciliation for ALC 16012011 did not include a signature and/or date to
        evidence that the reconciliation was timely prepared and reviewed by someone
        other than the preparer.

•   ETA did not maintain sufficient evidence to support that the cause was identified and
    appropriate corrective action was initiated for each individual difference identified on
    the FMS 6652 reconciliations for ALCs 16010003 and 16012016 for the month of
    January 2012. Further, approximately 96 percent, or $1.2 million, of these
    differences were not resolved in a timely manner.

•   OCFO did not maintain sufficient evidence to support that the cause was identified
    and appropriate corrective action was initiated for each individual difference
    identified on the FMS 6652 reconciliation for ALC 16012018 for the month of
    January 2012. Further, approximately 55 percent, or $35,000, of the difference was
    not resolved in a timely manner.

•   OFCCP did not complete a formal FMS 6652 reconciliation and review for ALC
    16010010 for the month of January 2012.

The issues relating to outstanding differences from prior reporting periods were caused
by BLS, OWCP, WHD, ETA, OASAM, OCFO, and OFCCP prioritizing the research and
resolution of significant current period differences reported on the monthly FMS 6652
rather than prior period differences; however, what constitutes a “significant” difference
                                                                  Management Advisory Comments
                                                           For the Year Ended September 30, 2012
                                          31                     Report Number: 22-13-006-13-001
                                                                       Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                                                        Exhibit I

was not formalized and communicated across DOL. Additionally, department-wide
policies and procedures did not specify or enforce the requirement that all differences
be resolved within three months.

Furthermore, OASAM, BLS, ETA, OCFO, and OFCCP management did not implement
an effective process for documenting the reconciliation and supervisory review of
individual differences on the FMS 6652 for the current and prior months, the related
causes, and the related corrective actions for each difference. Also, the OCFO had not
enhanced its policies and procedures to properly complete the monthly FMS 6652
reconciliations, including documented research and resolution of all identified
differences in current and prior months.

Differences that are not properly researched and resolved timely could potentially
compromise the reliability of FBWT balances, other USSGL account balances contra to
the USSGL 1010 account, and the Treasury’s published financial reports.

The Reconciliation Procedures states, “…agencies must research and resolve all
differences...”

The Reconciliation Procedures also states:

      Federal agencies must research and resolve differences reported on the
      monthly FMS 6652…CAB sends agencies’ CFOs a scorecard letter that
      provides a certain rating (scoring) on the accuracy and timeliness of an
      agency’s reconciling efforts should an agency have differences older than
      3 months.

Furthermore, the Reconciliation Procedures states:

      …each financial system’s policies and procedures should provide for
      regular and routine reconciliation of G/L accounts, thorough investigation
      of differences, determination of specific causes of differences, and
      initiation of corrective action.

TFM, Volume 1, Part 2, Chapter 5100, states:

      …agencies should reconcile FBWT accounts at least monthly. They
      should have written standard operating procedures to direct and document
      the correct reconciliation process … Agencies should document their
      reconciliations and make them available to auditors and Treasury if
      requested. Agencies also should ensure that all adjustments are
      researched and traceable to supporting documents.




                                                               Management Advisory Comments
                                                        For the Year Ended September 30, 2012
                                       32                     Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

TFM, Chapter 5100, further states that “…an authorized agency official should review and
sign the monthly agency reconciliation documents.”

GAO’s Standards states:

      Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

GAO’s Standards also states:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

Recommendations

We recommend:

1. The Commissioner of the Bureau of Labor Statistics, the Acting Director of the Office
   of Workers’ Compensation Programs, the Acting Administrator of the Wage and
   Hour Division, the Assistant Secretary for Employment and Training, the Assistant
   Secretary for Administration and Management, the Chief Financial Officer, and the
   Director of the Office of Federal Contract Compliance Programs dedicate
   appropriate resources to resolve all prior period differences, consulting with Treasury
   personnel as needed.

2. The Assistant Secretary for Administration and Management, the Commissioner of
   the Bureau of Labor Statistics, the Assistant Secretary for Employment and Training,
   the Chief Financial Officer, and the Director of the Office of Federal Contract
   Compliance Programs implement procedures to perform, document, and review
   timely the monthly FMS 6652 reconciliations to demonstrate that the differences
   identified on the Statement of Differences reports have been identified and
   investigated, and that appropriate corrective actions have been initiated; and

3. The Chief Financial Officer enhance department-wide policies and procedures over
   the FMS 6652 reconciliation process to: (a) require the proper completion of the
   monthly reconciliations, including documented research and resolution of all
   identified differences in current and prior months; (b) require the resolution of all
   FMS 6652 differences within three months; and (c) specify a threshold for identifying

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        33                      Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

   significant differences in the monthly FMS 6652 reports that will be prioritized for
   resolution. OCFO management should periodically review the threshold for
   reasonableness.

Management’s Response

OCFO has dedicated the adequate resources to resolve prior year differences and has
been aggressively assisting the agencies with their reconciliation processes. This is
demonstrated in the accomplishments achieved during FY12 Q2 & Q3. Since January
2012 DOL has accomplished the following:

   •   ALC 16012013 (WHD) and 16010010 (OFCCP):
       Both ALCs have been completely reconciled and cleared.

   •   ALC 16010013 (OCFO):
       Currently there is no SOD outstanding over three months.

   •   ALC 16012018 (OCFO):
       As of January 2012 we had SOD outstanding from April 2010.
       We were able to clear April, May and June 2010. We expect that by September
       2012 we will be able to clear all outstanding SOD over three months old.

   •   ALC 16012005 (OASAM ):
       As of January 2012 we had SOD outstanding from April 2011.
       Currently we were able to clear April 2011 through November 2011.

   •   ALC 16012001 (OASAM):
       This ALC has been fully reconciled and we expect to resolve all items by the end
       of the current year.

   •   ALC 16010003 – Disbursements (ETA):
        As of January 2012 we had SOD outstanding from January 2010, currently have
       been able to clear through July 2011.

   •   ALC 16012016-Disbursements (ETA):
       As of January 2012 we had SOD outstanding from December 2009. Currently we
       were able to clear through January 2011.

In FY 2012, OCFO developed and implemented the following procedures and tools to
assist with the SF224/SOD reconciliation: published a monthly schedule for the SF224
process, implemented weekly preliminary SF224 reviews, developed a standard
reconciliation template for completion by the agencies, and developed an OCFO
internal checklist to facilitate and document our monthly review. In addition, OCFO has
mandated that the monthly reconciliation include a dated supervisor signature.


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                       34                      Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

During the first quarter of FY13, OCFO published the Department Wide Reconciliation
Procedures Guide which consolidated the guidance to perform the reconciliations. In
addition, OCFO has communicated to Agency management both goals and progress
toward achieving Green ratings on the Quarterly Treasury Scorecard.

OCFO will continue to address the timeliness of the resolution of the Statement of
Differences. As stated in our response to NFR-12-05, it is our belief that significant
improvement has been accomplished.

BLS Response

Recommendation 1: BLS has increased its efforts to clear prior period differences and
in the past year has made good progress. BLS will continue to make this a top priority to
clear the remaining prior period differences by June 30, 2013.

Recommendation 2: BLS has implemented procedures to perform, document, and
review timely the monthly FMS 6652 reconciliations. The reconciliations identify all
differences at a detailed level including the Treasury IPAC reference and the DOL
document and invoice numbers. Management and staff meet regularly to determine,
plan, and execute corrective actions and monitor progress.

Auditors’ Response

Management indicated that actions have and will be taken to address the matters
identified in this comment. We will conduct follow-up procedures in FY 2013 to
determine whether corrective actions have been developed and implemented.

14. Untimely Review of Intra-governmental Reconciliation of Office of Personnel
    Management (OPM) Employee Benefits

During our FY 2012 audit procedures, we selected two quarterly reconciliations to
substantiate that intra-governmental balances related to OPM employee benefits were
reconciled to DOL’s accounting records. DOL’s informal policy is to complete and
perform the supervisory review within 30 days of the date the amounts are officially
available from OPM. For the first quarter, the supervisory review was completed 6 days
after the review was required to be completed.

The OCFO did not have formally documented procedures in place that required a
supervisor or someone other than the preparer to review the quarterly
intra-governmental confirmation and reconciliation to ensure timely and accurate
completion.

Not completing the OPM-related intra-governmental quarterly reconciliation, including
supervisory review, in a timely manner increases the risk that employee benefit


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        35                     Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

expenses are improperly classified and material misstatements are not detected and
corrected in a timely manner.

Treasury’s Federal Intra-governmental Transactions Accounting Policies Guide (Intra-
governmental Policies), Section 7 Agency Responsibilities, states, “Each agency is
responsible for … Reconciling the Intra-governmental data in its accounting records to
the supporting documentation based on FMS IRAS Reports.”

Also, the Intra-governmental Policies, Section 11.9, Intra-governmental Fiduciary
Confirmation System (IFCS), states, “Agencies must use the IFCS to reconcile and
confirm balances and activity with their trading partners on a quarterly basis.”

Furthermore, OMB Circular No. A-136, Section V.1, states:

      Intra-governmental balances and transactions are a key component in the
      consolidation of the financial information submitted by Federal entities and
      in the overall compilation process of the FR. Intra-governmental balances
      include transactions between Federal entities such as services or goods
      sold, transfers of assets or budget authority, investments or borrowings
      with the Department of the Treasury, and benefit-related transactions with
      the Department of Labor and the Office of Personnel Management.
      Therefore, agencies are required to reconcile Intra-governmental balances
      and transactions at least quarterly.

Finally, GAO’s Standards state:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

Recommendation

We recommend the Chief Financial Officer develop and implement procedures for
supervisory review of the intra-governmental quarterly confirmation and reconciliation
prior to submission to Treasury. These procedures should indicate the date by which
the review is to be completed and require that the reviewer physically or electronically
document his or her review and approval and the date of review.




                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        36                     Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Management’s Response

OCFO management will develop and implement procedures for the timely
documentation and review of the intra-governmental quarterly submission to Treasury.
The procedures will be implemented by April 30, 2013.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

15. Improvements Needed in Property, Plant, & Equipment (PP&E) Controls

During FY 2012, the OCFO made progress in addressing prior year recommendations.
Specifically, the OCFO identified and trained alternate personnel to perform the financial
reporting functions assigned to the PP&E contractors in the contractors’ absence and
hired additional federal employees to perform work previously assigned to contractors.
In addition, the OCFO appropriately reclassified certain consulting fees from general
ledger account 1720 Construction-in-Process (CIP) to general ledger account 6100 –
Operating Expense, and disposed of all Working Capital Fund PP&E at the end of
FY 2011.

However, we continued to note certain control weaknesses in the processing of PP&E
transactions. Specifically, during our test work of a sample of ten CIP additions for the
period October 1, 2011, through June 30, 2012, we identified one addition that was
recorded at the incorrect amount. The error was ultimately identified and corrected by
DOL nine months after the transaction was originally recorded.

Additionally, DOL did not configure NCFMS to record PP&E additions and deletions and
to accurately calculate current year depreciation and accumulated depreciation. Further,
the OCFO did not formally document the policies and procedures necessary to monitor
the work of its contractors.

The CIP addition was recorded at the incorrect amount because the OCFO did not have
sufficient review procedures related to CIP to ensure that all asset transactions were
properly capitalized in the general ledger. Also, because of competing priorities and
limited resources, DOL did not configure the NCFMS PP&E module. Further, because
the OCFO had implemented a process to monitor the work of its contractors,
management did not believe that formal documented policies and procedures were
necessary.

Inadequate controls over the PP&E process, including insufficient management review
procedures and a lack of automated controls, increase the risk that PP&E balances may


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        37                      Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

contain a material misstatement. Based on the error identified, the CIP balance was
overstated by $3.4 million as of June 30, 2012.

Per Paragraph 26 of SFFAS No. 6, Accounting for Property, Plant, and Equipment, “All
general PP&E shall be recorded at cost. Cost shall include all costs incurred to bring the
PP&E to a form and location suitable for its intended use.”

GAO’s Standards states, “Transactions should be promptly recorded to maintain their
relevance and value to management in controlling operations and making decisions.”

The Standards also states:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

Additionally, per OMB Circular No. A-123:

      Within the organizational structure, management must clearly: define
      areas of authority and responsibility; appropriately delegate the authority
      and responsibility throughout the agency; establish a suitable hierarchy for
      reporting; support appropriate human capital policies for hiring, training,
      evaluating, counseling, advancing, compensating, and disciplining
      personnel; and uphold the need for personnel to possess and maintain the
      proper knowledge and skills to perform their assigned duties as well as
      understand the importance of maintaining effective internal control within
      the organization.

Recommendations

We recommend the Chief Financial Officer:

1. Complete efforts to configure NCFMS so it can be used to record PP&E additions
   and deletions and to accurately calculate current year depreciation and accumulated
   depreciation;

2. Develop and implement review procedures over the CIP detail quarterly to ensure
   that all items are appropriately capitalized; and

3. Formally document the policies and procedures necessary to monitor the work of
   OCFO contractors.


                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        38                      Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

Management’s Response

DOL is in the process of configuring NCFMS to be used to record PP&E additions and
deletions, depreciation expense, and accumulated depreciation. The completion date
has not been established and will depend on available resources and other priorities.

Starting with 4th quarter 2012, ETA's Accounting Operations implemented additional
procedures to review the CIP detail quarterly to ensure that all items are appropriately
capitalized. Work performed by contractors is currently being reviewed by Federal staff.
ETA will formally document its review process of work performed by contractors by
January 2013. (Please note that the error noted above did not result from the work
performed by a contractor.)

Auditors’ Response

Management indicated that actions have and will be taken to address the matters
identified in this comment. We will conduct follow-up procedures in FY 2013 to
determine whether corrective actions have been developed and implemented.

16. Untimely Initiation of Background Checks for Personnel with Access to
    Financial Systems

During our FY 2012 audit procedures, we selected a sample of 34 newly hired DOL
employees and 13 contractors who obtained system access for the in-scope
applications during the period October 1, 2011, to May 30, 2012, to determine if they
had a background investigation completed prior to our test work date or the background
investigation was initiated within 14 calendar days of the date that the individuals first
entered on duty at DOL. We noted the following exceptions:

Contractors
DOL did not have a consistent, centralized process established to record the date a
contractor first entered on duty or began work at DOL. As such, we were unable to
evaluate evidence supporting whether the 13 contractors from OWCP and ETA had
background investigations initiated within 14 calendar days after they entered on duty at
DOL.

For the 13 contractors, OASAM could not provide evidence to substantiate that 3
contractors had completed background investigations as of August 10, 2012, and their
background investigations were initiated more than 14 calendar days after the
individuals received access to the information systems. Specifically, 3 OWCP
contractors were provided access to the Division of Information Technology
Management and Services General Support System on November 17, 2011, December
8, 2011, and March 16, 2012, respectively. However, background investigations were
not initiated for these contractors until after they received access to the system for a
period that ranged from 90 to 264 days.

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        39                      Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I


Employees
For the 34 newly hired DOL employees selected, OASAM could not provide evidence to
substantiate that 1 employee had a completed background investigation as of August
10, 2012; this background investigation was initiated more than 14 days after the
individual first entered on duty at DOL. Specifically, we noted that one OASAM
employee had an effective hire date of December 4, 2011. However, a background
investigation was not initiated for this employee until 147 days after the individual
entered on duty.

The issues noted above can be attributed to the fact that OASAM, the Security Office,
and DOL Agency Heads, or their designees, did not implement effective monitoring
procedures to determine compliance with DOL policies and procedures related to
initiating background investigations when Federal employees and contractors first enter
on duty at DOL. Additionally, DOL did not dedicate resources to develop and implement
a process to effectively capture the date that contractors first enter on duty at DOL in a
centralized and consistent basis.

Without proper personnel security measures, such as background investigations for
personnel working at or with DOL systems and data, the integrity of the information
assets is at risk for manipulation and potential compromise. In addition, DOL
management cannot ascertain compliance with its background investigation initiation
policies and procedures for contractors.

The DOL Personnel Suitability and Security Handbook, Chapter 2, Section 1, part D,
states, “DOL requires an investigation to be initiated before an individual first enters on
duty with the Department, or at the most, within 14 calendar days of placement in the
position […].”

Additionally, Chapter 4, Section 2, states:

       The personnel suitability and security program requirements that apply to
       DOL employees also apply to contractor employees, as well as to other
       persons who have such access by virtue of an agreement between a DOL
       Agency and another party.

Furthermore, Chapter 4, Section 3, Part C, states:

   The DOL Agency Heads, or their designees, are responsible for the operation
   of the Personnel Suitability and Security Program as it relates to contractor
   employees engaged in work for their respective organizations, including the
   following:

   •   Ensure that a contractor employee is not allowed to work, unless he or she
       has completed all required documentation to initiate the investigation.

                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                         40                     Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

   •   Ensure that the appropriate level of investigation for each contractor
       applicant or employee is initiated before or shortly after he or she begins
       work.

The DOL Computer Security Handbook, Version 4.0, Volume 13, version 1.0, Personnel
Security Procedures, page 4, states, “The Department and agency shall screen
individuals requiring access to Department and/or agency information and information
systems before authorizing access.”

Also, Homeland Security Presidential Directive 12: Policy for a Common Identification
Standard for Federal Employees and Contractors, states, “Secure and reliable forms of
identification…is issued based on sound criteria for verifying an individual employee's
identity.”

Recommendation

We recommend the Director of the OASAM Security Center (SC) continues to
implement procedures to initiate and monitor background investigations for all federal
employees and contractors, which should include following up on outstanding
background investigations to ensure their timely completion, and periodically reviewing
individuals in sensitive job positions to confirm appropriate background investigations
were completed.

Management’s Response

OASAM SC assumed responsibility for the employees background investigation (BI) on-
boarding process in the fourth quarter FY 2012. The SC has been assessing the status
of current and outstanding investigations to establish a baseline to begin planning
corrective actions. OASAM management understands the significance of this issue and
recently established an Employee On Boarding (EOB) Working Group (WG) to review
the current processes in place, identify areas for improvement, and renew/establish a
departmental policy and standard process that all DOL agencies can follow for the
proper initiation and completion of BI's for newly hired employees and contractors to
meet requirements.

OASAM SC will leverage work previously stated by OASAM HRC to include the
published ICD no. HRC-1, Background Investigation Status Report on 2/11/2011, which
requires HR offices to monitor, track, and address background investigation
requirements for all newly hired employees. Additionally, the SC will ensure compliance
with the related on-boarding processes outlined in the DOL Personnel Suitability and
Security Handbook (PSSH) for employees and contractors. OASAM SC will work with
the HR offices to enforce the ICD, and those related processes outlined in the PSSH
until an acceptable standard process has been established and implemented for the
department to follow.


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        41                     Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

The EOB WG membership includes representatives from OASAM HRC, SC, and OCIO.
The WG has only recently been established. Timelines and milestones have not been
established as of this response. OASAM SC will work with the EOB WG to assist in the
development of a reasonable timeline for the formulation and implementation of the new
standard for the department and will forward the information to the OIG.

Auditors’ Response

Management indicated that actions have and will be taken to address the matters
identified in this comment. We will conduct follow-up procedures in FY 2013 to
determine whether corrective actions have been developed and implemented.

17. Lack of Proper Review of Claimant’s Information Recorded in the Energy
    Compensation System (ECS)

In the FY 2012 audit, we identified an instance where an Energy Employees
Occupational Illness Compensation Program Act (EEOICPA) compensation payment
was not properly entered into ECS. Specifically, a claimant’s gender designation from
the Employee’s Claims for Benefits Form (EE-1) did not match to the gender
designation in ECS. This discrepancy occurred because the Claims Examiner failed to
thoroughly and properly review the claimant’s information entered in ECS by the Case
Create Clerk (CCC) to ensure it was consistent with the information on the EE-1.

Without effective controls surrounding the case creation process, the integrity of the
underlying data entered into the actuarial liability model may be compromised and result
in a misstatement in the EEOICPA actuarial liability.

GAO’s Standards states:

      Control activities occur at all levels and functions of the entity. They
      include a wide range of diverse activities such as approvals,
      authorizations, verifications, reconciliations, performance reviews,
      maintenance of security, and the creation and maintenance of related
      records which provide evidence of execution of these activities as well as
      appropriate documentation. Control activities may be applied in a
      computerized information system environment or through manual
      processes.

      Controls over Information Processing - A variety of control activities are
      used in information processing. Examples include edit checks of data
      entered, accounting for transactions in numerical sequences, comparing
      file totals with control accounts, and controlling access to data, files, and
      programs.



                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        42                     Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

Additionally, the EEOICPA Procedure Manual, Chapter 1-0300 Case Creation, number
7b, states:

      Verification of Claimant/Employee Information. The assigned Claims
      Examiner (CE) or CE2 confirms that the claimant/employee information is
      correct in ECS. The assigned CE or CE2 checks the last name, first
      name, and middle initial of the employee/claimant in ECS for accuracy.
      The full middle name does not appear in ECS unless the claim form is
      signed with the complete middle name. The assigned CE or CE2 checks
      the gender, date of birth, and date of death (when applicable) in ECS for
      accuracy. The address and phone number of the claimant/employee are
      also checked for accuracy.

Recommendation

We recommend that the Acting Director of the Office of Workers’ Compensation
Programs continues to implement the policies and procedures that require the CEs to
review the information entered by the CCCs and to update information in ECS as
applicable.

Management’s Response

On March 11, 2013, management issued a notice to Claims Examiners to emphasize
the policies and procedures that require the Claims Examiners to review the information
keyed in by the CCCs and to update information in ECS as applicable.

Auditors’ Response

Management indicated that actions have been taken to address the matters identified in
this comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

18. Lack of Formal Financial Reporting Policies and Procedures

During FY 2012, although the OCFO updated its internal procedures to include the
reconciliation and review of data populations prior to submission, OCFO personnel did
not document formal procedures in regards to the generation of detailed general ledger
transactions from NCFMS. In addition, the OCFO formally documented and retained the
resolution of significant accounting issues identified in FY 2012. However, the OCFO
did not formally document the process for promptly researching and resolving significant
financial reporting issues.

The OCFO did not formally document the aforementioned policies and procedures
because management believed the informal processes established during FY 2012
were sufficient and that documenting them was not necessary.

                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                       43                      Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

The lack of formally documented policies and procedures increases the risks that
controls necessary to ensure the consolidated financial statements are properly stated
and presented in conformity with generally accepted accounting principles (GAAP) may
not be performed or not performed properly. This could ultimately lead to errors in the
consolidated financial statements.

GAO’s Standards states:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

The Standards also states:

      …management is responsible for developing the detailed policies,
      procedures, and practices to fit their agency’s operations and to ensure
      that they are built into and an integral part of operations.

OMB Circular No. A-123 states:

      Control activities are the policies and procedures that help ensure that
      management directives are carried out and that management's assertions
      in its financial reporting are valid.

Recommendations

We recommend the Chief Financial Officer:

1. Formally document the procedures for generating detailed general ledger
   transactions from NCFMS; and
2. Formally document the process for promptly researching and resolving significant
   financial reporting issues that are identified.

Management’s Response

Formal reconciliation procedures for detailed general ledger transactions were
established in FY 2011 and have been followed consistently in FY 2012 and provided to
the auditors when requested. Such procedures include structured templates that staff is
required to complete to perform the reconciliations. Although, we continue to believe
that such procedures are adequate for other/new staff to be able to follow and perform,
we will undertake to include additional narrative documenting the process for preparing


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        44                     Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

the reconciliations and for researching and resolving significant financial reporting
issues in FY 2013.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

19. Lack of Policies and Procedures Related to New Obligations/Modifications

In FY 2011, we recommended that VETS enhance policies and procedures to ensure
that changes made to obligating documents are supported by documentation that is
retained and readily available upon request. During FY 2012, we noted that VETS
implemented the Procurement Action Request (PAR) form, which was used to support
new obligations and modifications. However, VETS did not implement formal policies
and procedures because management believed the informal process they established
during FY 2012 related to the implementation of the PAR was sufficient and that
documenting it was not necessary.

GAO’s Standards states:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

The Standards also states:

      …management is responsible for developing the detailed policies,
      procedures, and practices to fit their agency’s operations and to ensure
      that they are built into and an integral part of operations.

Per OMB Circular No. A-123:

      Control activities are the policies and procedures that help ensure that
      management directives are carried out and that management's assertions
      in its financial reporting are valid.

The lack of formally documented policies and procedures increases the risks that
controls over obligations may not be performed or not performed properly. This could
ultimately lead to misstatements in the balances of obligations.


                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        45                     Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

Recommendation

We recommend the Assistant Secretary for Veterans’ Employment and Training
formally document policies and procedures regarding how the PAR should be used to
ensure that changes to obligating documents are supported by documentation that is
retained and readily available upon request.

Management’s Response

VETS is in the process of developing a formal budgetary policy. We expect to be
completed by April 2013.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

20. Lack of Advisory Council on Unemployment Compensation

DOL was not in compliance with Section 908 of the Social Security Act (SSA), which
requires the Advisory Council on Unemployment Compensation (ACUC) to meet every
four years. However, the last meeting of the ACUC was in 1997. ETA has proposed an
amendment to SSA since 2005, most recently in the Unemployment Compensation
Program Integrity Act of 2011, that would permit the Secretary of the Department of
Labor to establish an advisory council at his/her discretion instead of every four years.
Congress has not yet approved this amendment.

ETA does not believe that the ACUC is the most effective way to evaluate the
unemployment compensation program. As a result, ETA planned to again propose an
amendment in FY 2012 to have Congress change the requirement outlined in the
legislation to read as follows:

      Section 10 amends section 908 of the SSA pertaining to the Advisory
      Council on Unemployment Compensation. Current law requires that the
      Secretary of Labor convene a new Council every four years. The
      amendments provide that the Secretary may periodically convene a
      Council and provides the Secretary the authority to define the scope of
      any such Council.

As such, DOL was not in compliance with Section 908 of the SSA.




                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        46                     Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

Section 908 of the SSA states:

      Not later than February 1, 1992, and every 4th year thereafter, the
      Secretary of Labor shall establish an advisory council to be known as the
      Advisory Council on Unemployment Compensation (referred to in this
      section as the “Council”). It shall be the function of each Council to
      evaluate the unemployment compensation program, including the
      purpose, goals, countercyclical effectiveness, coverage, benefit adequacy,
      trust fund solvency, funding of State administrative costs, administrative
      efficiency, and any other aspects of the program and to make
      recommendations for improvement.

Recommendation

We recommend the Assistant Secretary for Employment and Training comply with
Section 908 of the SSA or continue to pursue having the SSA amended by submitting to
Congress a proposal to amend the SSA, as has been done in prior years.

Management’s Response

Management agrees with the recommendation to continue to pursue having the SSA
amended by submitting to Congress a proposal to amend the SSA, as has been done in
prior years.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.

21. Insufficient Policies and Procedures Related to the Preparation of the
    Financial Audit Manual (FAM) 2010 Checklist

During our FY 2012 audit procedures, we continued to note certain deficiencies in the
completion of the FAM 2010. Specifically, the OCFO did not provide explanations or
other pertinent information to support the responses for all of the items on the detailed
checklist, as required. For instance, the majority of the questions in the FAM 2010 that
were answered “yes” did not have the page number or location in the financial
statements where the information could be found. Additionally, although the FAM 2010
was completed and received within the time frame requested, the OCFO did not revise
its policies and procedures related to the annual preparation and review of the FAM
2010 to indicate a specific date by which it should be completed and reviewed.

The OCFO’s policies and procedures related to the financial reporting process did not
provide sufficient instructions on how the FAM 2010 should be prepared and

                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        47                     Report Number: 22-13-006-13-001
                                                                         Prepared by KPMG LLP
                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                          Exhibit I

subsequently reviewed, specifically regarding explanations required as part of the
detailed checklist, nor did it provide a specific date by which it should be completed and
reviewed. As the OCFO had implemented an informal process to prepare and review
the FAM 2010, management did not believe that formal documented policies and
procedures with associated deadlines were necessary.

The issues noted above increase the risk that DOL’s consolidated financial statements
could be misstated or not presented in conformity with GAAP.

GAO’s FAM 2010 provides the following instructions for completing the checklist:

      For each ‘yes’ answer, include in the explanation column the page number
      or location in the financial statements where the information is found. Also,
      provide any other information pertinent to the question and the response
      in the explanation column.

      A ‘no’ answer indicates that the information asked for in the question is not
      included in the financial statements, notes, or supplementary information,
      respectively. This would include immaterial items that need not be
      disclosed. Describe in the explanation column or note why the information
      is not included and whether this causes the financial statements to not be
      in conformity with U.S. GAAP.

      An ‘N/A’ answer might indicate that the question does not apply to the
      federal entity. Describe in the explanation column or note why this
      information is not applicable.

GAO’s Standards states:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

The Standards also states:

      …management is responsible for developing the detailed policies,
      procedures, and practices to fit their agency’s operations and to ensure
      that they are built into and an integral part of operations.




                                                                 Management Advisory Comments
                                                          For the Year Ended September 30, 2012
                                        48                      Report Number: 22-13-006-13-001
                                                                        Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                         Exhibit I

In addition, OMB Circular No. A-123 states:

      Control activities are the policies and procedures that help ensure that
      management directives are carried out and that management's assertions
      in its financial reporting are valid.

Recommendations

We recommend the Chief Financial Officer revise the policies and procedures related to
the annual preparation and review of the FAM 2010. The policies and procedures
should include the following, at a minimum:
1. The date the checklist should be completed and reviewed;
2. Requirements for preparers to support their responses to questions in the checklist
   with detailed explanations, in accordance with GAO’s instructions; and
3. Requirements for a supervisor to review the completed FAM 2010 checklist for
   completeness, accuracy, and validity.

Management’s Response

Management will consider revising the policies and procedures as recommended by the
auditors prior to the preparation of the FAM 2010 for FY 2013. We note that the FAM
2010 was correctly prepared on time and was properly reviewed. The additional
explanations were considered not necessary as the answers provided were adequate to
assess compliance.

Auditors’ Response

Management indicated that actions will be taken to address the matters identified in this
comment. We will conduct follow-up procedures in FY 2013 to determine whether
corrective actions have been developed and implemented.




                                                                Management Advisory Comments
                                                         For the Year Ended September 30, 2012
                                        49                     Report Number: 22-13-006-13-001
                                                Prepared by KPMG LLP
            for the U.S. Department of Labor—Office of Inspector General
                                                                 Exhibit I




THIS PAGE IS INTENTIONALLY LEFT BLANK




                                        Management Advisory Comments
                                 For the Year Ended September 30, 2012
               50                      Report Number: 22-13-006-13-001
                                                                                                             Prepared by KPMG LLP
                                                                         for the U.S. Department of Labor—Office of Inspector General
                                                                                                                              Exhibit II




Status of Prior Year Comments
The status of comments reported in the Management Advisory Comments Identified in an Audit of the Consolidated
Financial Statements for the Year Ended September 30, 2011, dated March 29, 2012, (MAC), addressed to the
Assistant Inspector General for Audit and the Chief Financial Officer, United States (U.S.) Department of Labor (DOL),
is summarized in the table below. For each comment, we provided the current year status.

                                                                                                            FY 2012 Status of
Prior Year   Fiscal Year     Title of Comment                                                                   Comment
Comment       Comment      Reported in FY 2011                                                               Reported in the
 Number      Originated             MAC               Recommendation(s) Reported in the FY 2011 MAC           FY 2011 MAC
 2011-01        2010       Preparation of the        We recommend the Chief Financial Officer review Open (See Exhibit
                           Federal Managers’         DOL’s FMFIA assessment process and implement I comment no. 9)
                           Financial Integrity Act   enhancements to (a) better document its final internal
                           of 1982 (FMFIA)           control assessments and related rationale, (b)
                           Draft Assurance           document its consideration of relevant external audit
                           Statement                 results, and (c) more timely complete its draft FMFIA
                                                     assurance statement and SAD.
 2011-02        2010       Untimely Receipt of       We recommend that the Chief Financial Officer:         Closed
                           Prepared-by-Client
                           (PBC) Items
                                                     1. Enhance the new quality control process for
                                                        reviewing PBC items prior to submission to the
                                                        auditors to ensure each item addresses all required
                                                        elements per the request.
                                                     2. Continue efforts to improve monitoring of the PBC
                                                        list by periodically reviewing it for items due in the
                                                        upcoming weeks and following up with the
                                                        responsible individuals at least one week prior to
                                                        the due date to ensure they are tracked and to
                                                        identify potential delays and ensure the appropriate
                                                        resources are in place to adequately fulfill the PBC
                                                        list.
                                                                                                     Management Advisory Comments
                                                                                              For the Year Ended September 30, 2012
                                                            51                                      Report Number: 22-13-006-13-001
                                                                                                            Prepared by KPMG LLP
                                                                        for the U.S. Department of Labor—Office of Inspector General
                                                                                                                            Exhibit II

                                                                                                                FY 2012 Status of
Prior Year   Fiscal Year    Title of Comment                                                                        Comment
Comment       Comment      Reported in FY 2011                                                                   Reported in the
 Number      Originated            MAC              Recommendation(s) Reported in the FY 2011 MAC                 FY 2011 MAC
                                                    3. Improve accountability for PBC items by continuing
                                                       to coordinate with the appropriate Agency Heads to
                                                       ensure they are properly monitoring those
                                                       individuals responsible for delivering PBC items
                                                       and taking appropriate corrective actions when
                                                       PBC requests are not delivered timely.
                                                    4. Consistently communicate PBC delays, which
                                                        should be rare, as soon as they are identified, and
                                                        provide a realistic alternative delivery date based
                                                        on consultation with the individual or agency
                                                        responsible for providing the item.
 2011-03        2011       Deficiencies in Grant-   We recommend that the Chief Financial Officer identify      Closed
                           related Obligation       the specific cause of the New Core Financial
                           and Modification         Management System (NCFMS) posting error and
                           Controls                 develop and implement corrective actions to ensure
                                                    modifications are posted for the correct amount to the
                                                    appropriate accounting line in NCFMS.
 2011-04        2010       Non-grant, Non-          We recommend that the Acting Assistant Secretary for        Open (See Exhibit
                           benefit, New             Veterans’ Employment and Training Service enhance           I comment no. 19)
                           Obligations/             policies and procedures to require that changes made
                           Modifications            to obligating documents are supported by
                                                    documentation that is retained and readily available
                                                    upon request.
 2011-05        2011       Improvements             We recommend that the Chief Financial Officer:         Partially Open
                           Needed in the                                                                   (See Exhibit I
                                                    1. Develop and implement procedures for supervisory
                           Reconciliation and                                                              comment no. 14)
                                                       review of the intra-governmental quarterly
                           Recording of
                                                       confirmation and reconciliation prior to submission
                           Employee
                                                       to Treasury in Intra-governmental Fiduciary
                           Benefits
                                                       Confirmation System. These procedures should

                                                                                                    Management Advisory Comments
                                                                                             For the Year Ended September 30, 2012
                                                           52                                      Report Number: 22-13-006-13-001
                                                                                                         Prepared by KPMG LLP
                                                                     for the U.S. Department of Labor—Office of Inspector General
                                                                                                                         Exhibit II

                                                                                                             FY 2012 Status of
Prior Year   Fiscal Year    Title of Comment                                                                     Comment
Comment       Comment      Reported in FY 2011                                                                Reported in the
 Number      Originated            MAC           Recommendation(s) Reported in the FY 2011 MAC                 FY 2011 MAC
                                                   require that the reviewer physically or electronically
                                                   document his or her review and approval and the
                                                   date of review.
                                                  2. Update the NCFMS configuration to properly
                                                      crosswalk object class codes for employee benefit
                                                      program and operating expenses based on United
                                                      States Government Standard General Ledger
                                                      requirements.
 2011-06        2011       Insufficient          We recommend that the Director of Human Closed
                           Documentation         Resources, Human Resource Center, Office of the
                           Related to the        Assistant     Secretary    for   Administration  and
                           Request for           Management (OASAM), provide training to reinforce
                           Personnel             with applicable DOL personnel the procedures to be
                           Action, Standard      followed and documentation to be prepared when
                           Form 52               processing separated employees.
 2011-07        2010       Insufficient          We recommend that the Assistant Secretary for Open (See Exhibit
                           Documentation         Administration and Management update the Standard I comment no. 10)
                           Related to the        Operating Procedures Guidelines for the [Human
                           Review of Payroll     Resources] HR Suspense Process to include minimum
                           Suspense              documentation requirements to support the review of
                           Reports               suspense reports and the clearing of items listed on
                                                 the suspense reports. The update should also include
                                                 requirements related to the time period and method of
                                                 retention of such documentation.
                                                 We also recommend that the Director of Human
                                                 Resources, Human Resource Center, OASAM,
                                                 monitor compliance with the Standard Operating
                                                 Procedures Guidelines for the HR Suspense Process.
 2011-08        2011       Untimely Recording    We recommend that the Chief Financial Officer:     Partially Open
                           of Property, Plant,                                                      (See Exhibit I
                                                                                                 Management Advisory Comments
                                                                                          For the Year Ended September 30, 2012
                                                       53                                       Report Number: 22-13-006-13-001
                                                                                                          Prepared by KPMG LLP
                                                                      for the U.S. Department of Labor—Office of Inspector General
                                                                                                                          Exhibit II

                                                                                                              FY 2012 Status of
Prior Year   Fiscal Year     Title of Comment                                                                     Comment
Comment       Comment      Reported in FY 2011                                                                 Reported in the
 Number      Originated             MAC           Recommendation(s) Reported in the FY 2011 MAC                 FY 2011 MAC
                           and Equipment                                                                      comment no. 15)
                           (PP&E) and Lack of
                                                  1. Complete efforts to configure NCFMS so it can be
                                                     used to record PP&E additions and deletions and
                           Formal Policies and
                                                     to accurately calculate current year depreciation
                           Procedures over
                                                     and accumulated depreciation.
                           Monitoring of
                           Contractors            2. Identify and train alternate personnel to perform the
                                                     financial reporting functions assigned to the PP&E
                                                     contractors in the contractors’ absence.
                                                  3. Formally document the policies and procedures
                                                     necessary to monitor the work of its contractors.

 2011-09        2011       Improvements           We recommend that the Chief Financial Officer:      Partially Open
                           Needed over PP&E                                                           (See Exhibit I
                                                  1. Analyze CIP detail to identify all improperly
                           Construction-in-                                                           comment no. 15)
                                                     capitalized consulting fees, and reclassify them
                           Process (CIP)
                                                     from CIP to Operating Expense in the general
                                                     ledger.
                                                   2. Develop and implement review procedures over
                                                      the CIP detail quarterly to ensure that all items are
                                                      appropriately capitalized.
 2011-10        2011       Lack of Proper         We recommend that the Acting Director of the Office of Closed
                           Review over the        Workers’ Compensation Programs revise policies and
                           Energy Employees       procedures for the review of the EEOICB actuarial
                           Occupational           model to mitigate the risk that errors within the
                           Illness Compensation   actuarial model may cause a material misstatement.
                           Benefits (EEOICB)
                           Liability
 2011-11        2011       Refinement of          We recommend that the Acting Director of the Office of Closed
                           Discount Rate          Workers’ Compensation Programs refine the discount
                           Selections             rate selection methodology to incorporate guidance

                                                                                                  Management Advisory Comments
                                                                                           For the Year Ended September 30, 2012
                                                         54                                      Report Number: 22-13-006-13-001
                                                                                                        Prepared by KPMG LLP
                                                                    for the U.S. Department of Labor—Office of Inspector General
                                                                                                                        Exhibit II

                                                                                                            FY 2012 Status of
Prior Year   Fiscal Year    Title of Comment                                                                    Comment
Comment       Comment      Reported in FY 2011                                                               Reported in the
 Number      Originated            MAC            Recommendation(s) Reported in the FY 2011 MAC               FY 2011 MAC
                                                  provided in federal accounting standards to ensure
                                                  discounted liabilities and cash flows presented in
                                                  DOL’s financial statements continue to meet federal
                                                  accounting standards.
 2011-12        1997       Re-establishment of    We recommend that the Assistant Secretary of Open (See Exhibit
                           the Unemployment       Employment and Training Administration continue to I comment no. 20)
                           Compensation           pursue having the Social Security Act amended.
                           Advisory
                           Council
 2011-13        2011       Improvements           We recommend that the Chief Financial Officer revise Open (See Exhibit
                           Needed in              the policies and procedures related to the annual I comment no. 21)
                           Completion of          preparation and review of the FAM 2010. The policies
                           Accounting Checklist   and procedures should include the following, at a
                                                  minimum: a) the date by which the checklist should be
                                                  completed and reviewed; b) requirements for
                                                  preparers to support their responses to questions in
                                                  the checklist with detailed explanations, in accordance
                                                  with GAO’s instructions; and c) requirements for a
                                                  supervisor to review the completed FAM 2010
                                                  checklist for completeness, accuracy, and validity.




                                                                                                Management Advisory Comments
                                                                                         For the Year Ended September 30, 2012
                                                        55                                     Report Number: 22-13-006-13-001
                                               Prepared by KPMG LLP
           for the U.S. Department of Labor—Office of Inspector General
                                                                Exhibit II




THIS PAGE IS INTENTIONALLY LEFT BLANK




                                       Management Advisory Comments
                                    For the Year Ended September 30, 2012
               56                     Report Number: 22-13-006-13-001
                                                                      Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                                                   Appendix A


Appendix A
                          Acronyms and Abbreviations
ACUC       Advisory Council on Unemployment Compensation
ALC        Agency Location Code
CAB        Cash Analysis Branch
CFOA       Chief Financial Officers Act
CIP        Construction-in-Process
DBC        Departmental Budget Center
DFR        Division of Financial Reporting
DOL        United States Department of Labor
EEOICB     Energy Employees’ Occupational Illness Compensation Benefits
EEOICPA    Energy Employees Occupational Illness Compensation Program Act
EOB        Employee On Boarding
ETA        Employment and Training Administration
FAM        Financial Audit Manual
FBWT       Fund Balance with Treasury
FFMIA      Federal Financial Management Improvement Act
FMFIA      Federal Managers’ Financial Integrity Act of 1982
FMS 6652   Statement of Differences
FY         Fiscal Year
GAAP       Generally Accepted Accounting Principles
GAO        Government Accountability Office
GWA        Government-wide Accounting
HR         Human Resources
HRC        Human Resource Center
ICD        Internal Control Directive
IFCS       Intra-governmental Fiduciary Confirmation System
IRAS       Intragovernmental Reporting and Analysis System
IT         Information Technology
NCFMS      New Core Financial Management System
NFC        United States Department of Agriculture National Finance Center
OASAM      Office of the Assistant Secretary for Administration and Management
OCFO       Office of the Chief Financial Officer
OFCCP      Office of Federal Contract Compliance Programs
OIG        Office of Inspector General
OMB        Office of Management and Budget
OPM        Office of Personal Management
OWCP       Office of Workers’ Compensation Programs
PBC        Prepared by Client
PP&E       Property, Plant, and Equipment
PSSH       Personnel Suitability and Security Handbook
SAD        Summary of Aggregated Deficiencies
SC         Security Center

                                                             Management Advisory Comments
                                                      For the Year Ended September 30, 2012
                                      57                    Report Number: 22-13-006-13-001
                                                                    Prepared by KPMG LLP
                               for the U.S. Department of Labor—Office of Inspector General
                                                                                Appendix A

SFFAS       Statement of Federal Financial Accounting Standards
SNC         Statement of Net Cost
SSA         Social Security Act
SSAE        Statement on Standards for Attestation Engagements
Standards   Government Accountability Office’s Standards for Internal Control in the
              Federal Government
T&A         Time and Attendance
TAFS        Treasury Account Fund Symbol
TFM         Treasury Financial Manual
TP          Tie-Point
Treasury    United States Department of the Treasury
U.S.        United States
UDO         Undelivered Order
USC         United States Code
USSGL       U.S. Standard General Ledger
UTF         Unemployment Trust Fund
VETS        Veterans’ Employment and Training Service
WG          Working Group
WHD         Wage and Hour Division




                                                             Management Advisory Comments
                                                      For the Year Ended September 30, 2012
                                      58                    Report Number: 22-13-006-13-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:        1-800-347-3756
                       202-693-6999

Fax:                    202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
